C'OCKLE
2311 Douglas Street CA Le ga 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 20-1778

WESTMORELAND MINING HOLDINGS LLC,
Petitioner,
Vv.
ENVIRONMENTAL PROTECTION AGENCY, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did. on the 22nd day of July, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE AS AMICUS CURIAE IN
SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

Ilya Shapiro

Counsel of Record
CATO INSTITUTE
1000 Mass. Ave., N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 22nd day of July, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

  

wed dma My Comm. Exp, September 5, 2023

  

GENERAL NOTARY-State of Nebraska
RENEE J, GOSS

hoo Qudia-h, Chile

Notary Public Affiant

 

 

41149
Attorneys for Petitioner

Andrew Michael Grossman
Counsel of Record
Baker & Hostetler LLP
1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036
agrossman@bakerlaw.com
202-861-1697
Party name: Westmoreland Mining Holdings LLC

Attorneys for Respondents

Elizabeth B. Prelogar

Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Party name: Federal respondents
